V*

CERTIFICATE OF SERVICE
No.
CHRISTINE CLIFFORD, (AS ADMINISTRATOR OF
THE ESTATE OF JOHN CLIFFORD), et al„ Petitioner
v.
ROBERT FEDERMAN, et al., Respondents
It is hereby certified that all parties required to be
served have been served via email and with three (3)
copies of the PETITION FOR WRIT OF
CERTIORARI, via first class mail, postage prepaid,
this 30th day of July 2021.
[See Attached Service Lilt]

Carl J. So.l no, ..Esq.
Brach Eichler LLC
101 Eisenhower Parkway
Roseland, NJ 07068
973.228.5700

SERVICE LIST
Henry Milton Quillian , III. Esq.
Taylor English Duma LLP
Suite 200
1600 Parkwood Circle
Atlanta, GA 30339
Attorneys for Richard Federman
James Larry Stine, Esq.
Wimberly Lawson
3400 Peachtree Road, NE
Suite 400 - Lenox Towers
Atlanta, GA 30326
Attorneys for Winston Johnson, Winsonic Digital Media
Cable Systems Holdings, Inc., Winsonic Digital Media
Group, Ltd.-, Winsonic Digital Cable Systems Network
Ltd., Lori Poole, Doc Maandi Movies, LLC, DMMExpendables 3 LLC, Maandi Media Productions Digital
LLC, Maandi Media Productions LLC, Maandi Park
MS LLC, Maandi Media Holdings International LLC,
Kimberlyte Productions, 2496 Digital Distribution LLC,
1094 Digital Distribution LLC, SST Swiss Sterling,
Inc., Winsonic Digital Cable systems Network
Holdings, Ltd.
James Johnson, Esq.
Knight Johnson, LLC
One Midtown Plaza
1360 Peachtree Street NE
Suite 1201
Atlanta, GA 30309
Attorney for Katie Ashcraft, Building Consulting, LLC,
Ashcraft Opperman & Associates, LLC,

2

Ivy Neal Cadle, Esq.
Baker Donelson Bearman Caldwell & Berkowitz, P.C.
Monarch Plaza, Suite 1500
3414 Peachtree Road, NE
Atlanta, GA 30326-1164
Attorneys for Justin Su and Cascade Northwest, Inc.
Roger E. Harris, Esq.
Swift, Currie, McGhee & Hiers, LLP
The Peachtree, Suite 300
1355 Peachtree St., N.E.
Atlanta, GA 30309-3231
Attorneys for Todd Guthrie & Tech CXO, LLC
Candice Devonne McKinley. Esq.
Reynolds Law Group
Suite 1100
3390 Peachtree Road
Atlanta, GA 30326
Attorneys for Patrick Shaw and Rickshaw Productions,
LLC
Jeffrey L. Schultz. Esq.
Armstrong Teasdale, LLP-MO
Suite 1800
7700 Forsythe Blvd.
St. Louis, MO 63105
Attorneys for Kristy Thurman and KT Communications
Consulting, Inc.
John C. Stivarius , Jr,
Elarbee, Thompson, Sapp & Wilson, LLP
800 International Tower
229 Peachtree St., N.E.
Atlanta, GA 30303-1614
Attorneys for Robert Half International, Inc.

3

Heather Clippard
2228 Myra Lane
Snellville, GA 30078
Robert Kostensky
132 Cole Street NE
Marietta, GA 30060-1752
Pro Se
Daryl Arthur & Megatone Music, LLC
44B Town Square
Blairsville, GA 30512

4

